The Department of Justice Office of the Inspector General (OIG) today released a
report examining the Department of Justice’s (DOJ) internal controls over the
reporting of terrorism-related statistics at the Executive Office for United States
Attorneys (EOUSA). The OIG previously examined this issue in 2007 and concluded
that DOJ and its components, including EOUSA, had not accurately reported certain
terrorism-related statistics.

The purpose of the follow-up report issued today was to determine what actions
EOUSA took in response to our 2007 audit and whether those actions improved its
ability to gather, track, classify, verify, and report accurate terrorism-related
statistics. These included statistics that reflected on the performance of EOUSA’s
terrorism-related efforts, such as the number of terrorism-related cases filed, the
number of defendants convicted at trial or by guilty plea, and the number of
defendants sentenced to prison.

Our follow-up audit concluded that EOUSA has not significantly improved its
reporting of terrorism-related statistics since our 2007 audit. In our 2007 audit, we
found that all 11 tested statistics reported by EOUSA were reported inaccurately, and
9 of those were either overstated or understated by significant margins. In this follow-
up audit, we again found that all 11 EOUSA statistics we tested were reported
inaccurately, and 8 of those statistics were either overstated or understated by
significant margins.

For example, we found in this follow-up audit that EOUSA overstated the number of
terrorism-related defendants within our sample who had been judged guilty in FY
2009 by 13 percent, and then overstated the same statistic for the defendants within
our FY 2010 sample by 26 percent. The inaccuracies we found also included a
statistic showing the number of terrorism-related defendants within our sample who
had been sentenced to prison in FY 2010, which EOUSA overstated by 19
percent. These inaccuracies are important in part because DOJ management and
Congress need accurate terrorism-related statistics to make informed operational and
budgetary decisions.

The continued inaccurate reporting by significant margins indicates that EOUSA still
needs to strengthen its implementation of controls for gathering, verifying, and
reporting terrorism-related statistics. Today’s report therefore makes eight
recommendations to assist EOUSA and the U.S. Attorneys’ Offices (USAOs) in doing
this, including recommendations relating to the guidance the EOUSA provides to
USAOs for use when collecting data, the timeliness with which USAOs report data to
the EOUSA, the disclosures that accompany EOUSA’s statistical reports, and the
documentation of the processes EOUSA uses to collect and report terrorism-related
statistics.

The report can be found on the OIG website at:
http://www.justice.gov/oig/reports/2013/a1334.pdf.
